      OFFICE OF JUSTICE PROGRAMS 

     NATIONAL INSTITUTE OF JUSTICE 

   NO SUSPECT CASEWORK DNA BACKLOG 

 REDUCTION PROGRAM FISCAL YEAR 2003 

COOPERATIVE AGREEMENT AWARDED TO THE 

  TENNESSEE BUREAU OF INVESTIGATION, 

  AGREEMENT NUMBER 2003-DN-BX-K047 

         NASHVILLE,TENNESSEE 




       U.S. Department of Justice 

     Office of the Inspector General 

              Aud it Div ision 



       Audit Report GR-40-06-005 

               April 2006 


    REDACTED - FOR PUBLIC RELEASE
                   OFFICE OF JUSTICE PROGRAMS 

                  NATIONAL INSTITUTE OF JUSTICE 

                NO SUSPECT CASEWORK DNA BACKLOG 

              REDUCTION PROGRAM FISCAL YEAR 2003 

             COOPERATIVE AGREEMENT AWARDED TO THE 

               TENNESSEE BUREAU OF INVESTIGATION, 

               AGREEMENT NUMBER 2003-DN-BX-K047 

                      NASHVILLE, TENNESSEE 


                               EXECUTIVE SUMMARY' 


       The Office of the Inspector General, Audit Division has completed
an audit of the No Suspect Casework DNA Backlog Reduction Program
Fiscal Year 2003 cooperative agreement awarded by the U.S .
Department of Justice (DOJ) , Office of Justice Programs (OJP),
National Institute of Ju stice (NIJ) to the Tennessee Bureau of
Investigation (TBI) headquartered in Nashville, Tennessee . The
purpose of the cooperative agreement was to facilitate the
ex amination of 2,800 backlogged no suspect cases, some dating back
to 1983 , by providing funding for overtime, equipment, supplies, and
contractor ex penses. No suspect ca ses are cases where law
enforcement has not developed a suspect, or cases in which a suspect
has been eliminated through testing or other investigative means .
When the cooperative agreement expired April 30, 2005, the TBI had
received and ex pended $537,605 of the $3,369,813 cooperative
agreement award . We tested the TBI's accomplishment of the
cooperative agreement objectives. We also tested the TBI 's
accounting record s to determine if reimbursements cla imed for cost s
under the cooperative agreement were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms
and conditions of the cooperative agreement.

       We found that the TBI substantially complied with the
requirements of the cooperative agreem ent. However, the TBI did not
achieve a program obj ective to examine 2,800 no suspect cases . Th is
occurred because the TBI used an unreliable methodology to estimate
the number of backlogged cases for which funding wa s needed .
Moreover, after funding was awarded, the TBI found that other
agencies were unwilling t o submit backlogged cases for processing by
th e TB1. As a result, federal fund s were obligated to the program that


         . The Office of t he I nspector Gene ral has redacted pot entially cont ract sensit ive
in form ation from th is report to enabl e its public release .
could not be sp ent, and the effecti ven ess of national and state DNA
databases as a resource to solve and prevent future criminal acti v ity is
diminished . In addition, we found on e Progress Report that did not
accurately refl ect coop erati ve agree m ent act ivity.

       We identified $2,8 32,208 in obligated co operati ve agreem ent
fun ds that should be put to better use. l Our finding s are discu ssed in
detail in the Findings and Recommendations section of the report. Our
audit objectives, scope, and m ethodolog y appear in App endi x 1.




         1 The I nspect or General Act of 1978, as amended, conta ins our reporting
requirements for questioned costs and funds to better use. However, not all findings
are dollar- related. See Appendix II for a breakdown of our dollar-related fi nd ings and
for defi nitions of questioned cost s and funds put to better use .


                                            ii
                                       TABLE OF CONTENTS 


INTRODUCTION ..................................................................... .. 1 

OUR AUDIT APPROACH ••••... •••.........•........................•...•...••.•.••. 2 

FINDINGS AND RECOMMENDATIONS ...................................... 4 

     Cooperativ e Agreement Obje ctives and Accompli shments . .. . ...... 4 

     Financial Status and Progress Reports .... . .. . .... . .. .. .. .. . .. . .. ....... . . 8 

     Cooperative Agreement Dra w do w ns .. .. . .. ... .. .. ... . ...• •. . ... . ..... . .... . 9 

     Budget Manag ement and Control .. . .. ......... ...... . ... ....... .. ... .. . ... 10 

     Program Income ... . .. .. . ..... .. .. .. . .. . .... .. ...... .. ... . ... .. .. .. .. .. . .. .. . . .. 10 

     Cooperative Agreement Ex penditure s ... .. .. . .... . ... . .. ... .. . .. .. . .. . .. . 11 

     Monitoring of Subrecipients .... .. ... .. .. .. .. ...... . . ...... . .. .. .. .. . .. ... . .. . 12 

     Conclusion . ... .. . . ... .. .... . ..... .. .... ... . .. . ...... . .. .. .. ........ . ..... . .. . .. . .. . 12 

     Recommendations .. . ... . ... ... .. . . .. .. ..... .. ... . .... .. .. . ... ... . ...... . ....... 13 


APPENDIX I               - OBJECTIVES, SCOPE, AND METHODOLOGy .... 14 

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .. 15 

APPENDIX 111- CHRONOLOGY OF SELECTED TBI PROGRAM 

              ACTIVITIES ................................................... 16 

APPENDIX IV - TENNESSEE BUREAU OF INVESTIGATION 

              RESPONSE ..................................................... 17 

APPENDIX V - OFFICE OF JUSTICE PROGRAMS RESPONSE ... 19 

APPENDIX VI - OFFICE OF THE INSPECTOR GENERAL, AUDIT 

              DIVISION ANALYSIS AND SUMMARY OF 

              ACTIONS NECESSARY TO CLOSE REPORT .... .. 21 

                                   INTRODUCTION

      In July 2003, the Tennessee Bureau of Investigation (TBI)
entered into a cooperative agreement with the Department of Justice
(DOJ), Office of Justice Programs (OJP), National Institute of Justice
(NIJ) to examine, through outsourcing and in-house analysis, 2,800 no
suspect DNA cases located in the State of Tenness ee.

       The cooperative agreement is part of the OJP No Suspect
Casework DNA Backlog Reduction Program that provides funding to
state laboratories to identify, collect, and analyze DNA samples from
evidence collected in cases where no suspect has been identified or in
which the original suspect has been eliminated. These cases typically
involve cr imes such as sexual assault, homicide, violent assault, or
burglary that sometimes produce evidence in the form of blood,
semen, or saliva . The backlog refers to samples of collected evidence
awaiting DNA testing that were submitted to the TBI prior to
January 30, 2004, and stored within the TBI and the local law
enforcement and Sexual Assault and Rape Center (SARC) community.
Once these samples, which the TBI refers to as exhibits, are submitted
to the TBI, forensics tests are conducted to identify and characterize
various body fluids, and to perform DNA profiling to identify specific
individuals by comparing samples from evidence left at a crime scene
or from the body of a victim. The resulting DNA profiles are uploaded
into the Combined DNA Index System (CODIS) in an effort to link
collected crime scene evidence to a convicted felon. 2

      The TBI, the State of Tennessee's primary criminal investigative
agency, is responsible for assisting local law enforcement and
investigating various crimes including, illegal drugs, fugitives, public
corruption, and organized crime . The Forensic Services Division
administers the cooperative agreement and is located at the TBI
headquarters facility in the City of Nashville, Tennessee. Along with a
central laboratory in Nashville, the Forensic Services Division has
regional crime laboratories in Memphis and Kno xville; providing
forensic analysis of biological, chemical, and physical evidence.

     As shown on the next page, in fiscal year (FY) 2003, the TBI was
awarded $3,369,813 in cooperative agreement funds .



      2 CODIS is a nati onal DNA information repository, maintained by the Federal
Bureau of I nvestigation , that allows local, state, and federal crim e labo ratories to store
and com pare DNA profiles from crim e scene evi dence and from conv icted offen ders.



                                              1

           COOPERATIVE AGREEMENT AWARDED TO THE TBI 

    Agreement           Award         Award      Award         Award        Award
     Number           Start Date     End Date    Amount        Spent       Unspent
 2003-DN-BX-K047        7/11/03      4/30/05    $3 ,369 ,813   $537,605   $2,832 ,208
Source: Office of Justice Programs

         The primary objectives of the cooperative agreement were to :

         • 	 outsource 2,500 backlogged cases to a private vendor
             contracted to perform the DNA analysis,

         • 	 complete a DNA analysis on 300 cases in-house, and

         • 	 increase the Foren sic Services Division's capacity to perform
             DNA analysis by using award funds for employee overtime
             costs, and forensic laboratory equipment and supplies.

  Our Audit Approach

        We test compliance with what we consider to be the most
  important conditions of the cooperative agreement. The criteria we
  audit against are contained in the OJP Financial Guide, 2003 . We
  tested the TBI's:

         • 	 Cooperative Agreement Objectives and
             Accomplishments to determine if the TBI met the
             cooperative agreement objectives;

         • 	 Financial Status and Progress Reports to determine if the
             required Financial Status Reports and Progress Reports were
             submitted on time and accurately reflect cooperative
             agreement activity;

         • 	 Cooperative Agreement Drawdowns to determine
             whether cooperative agreement drawdowns were adequately
             supported and if the TBI was managing cooperative
             agreement receipts in accordance with federal requirements ;

         • 	 Budget Management and Control to determine the overall
             acceptability of budgeted costs by identifying any budget
             deviations between the amounts budgeted and the actual
             costs for each cost category; and




                                        2

     • 	 Cooperative Agreement Expenditures to determine the
         accuracy and allowability of costs charged to the cooperative
         agreement.

      When applicable, we also test for compliance in the areas of
matching funds, program income, and the monitoring of subrecipients.
We performed limited work to determine that matching funds were not
required and that there was no program income or subrecipients
associated with this cooperative agreement.




                                3

               FINDINGS AND RECOMMENDATIONS 



    COMPLIANCE WITH ESSENTIAL COOPERATIVE AGREEMENT
    REQUIREMENTS

    The TBI substantially compl ied with the requirements of the
    cooperative agreement. Financial Status and Progress Reports
    were submitted timely and the Financial Status Reports accurately
    reflected cooperative agreement activity. Reimbursements from
    award funds were accurate. Expenditures were allowable,
    reasonable, allocable, and did not deviate beyond 10 percent of
    the OJP-approved budget. However, the TBI did not meet a
    program objective to complete, by outsourcing or in-house
    analysis, 2,800 no suspect DNA cases . As a result, funds were
    obligated to the program that could not be spent and the
    effectiveness of national and state DNA databases as a resource
    to solve and prevent future criminal activity is diminished. In
    addition, one Progress Report did not accurately reflect
    cooperative agreement activity.

Cooperative Agreement Objectives and Accomplishments

      To measure the success of the program, it is important to
evaluate whether the TBI had met the coope rative agreement
objectives. As stated previously, the three primary objectives were to :

     • 	 outsource 2,500 backlogged cases to a private vendor
         contracted to perform the DNA analysis,

     • 	 complete a DNA analysis on 300 cases in-house, and

     • 	 increase the Foren sic Services Division's capacity to perform
         DNA analysis by using award funds for overtime costs, and
         forensic laboratory equipment and supplies.

       To determine if these objectives had been met, we compared the
objectives to program outputs recorded in the TBI 's Laboratory
Information Management System (LlMS), reviewed accounting and
property records, interviewed TBI officials, and noted local media
articles related to the TBI program. From our sample review of
cooperative agreement expenditures, and accountable property
purchased with cooperative agreement funds (discussed in more detail
in the Cooperative Agreement Expe nditures section), we determined




                                 4

that forensic laboratory equipment and supp lies were purchased and
used for the purposes stated in the cooperative agreement. However,
as a result of the program, the TBI only examined 618 no suspect
cases . The TBI examined 185 cases through outsourcing, and 433
cases throug h in-house ana lysis.

       The fo ll owing chart lists prog ram outputs, the correspond ing
output goal established by the TBI in its cooperative ag reeme nt
appl icat ion, and the final status of these outputs that the TBI shou ld
have reported to the OJ P afte r the cooperative ag reement had
ex pired .3

      SELECT PROGRAM OUTPUT GOALS AND FINAL STATUS
Program Output            Output Goal                  Final St atus of Output
Cases Submitted           2800 cases                   618 cases
Cases Completed           2,5 00 cases would be        185 cases outsou rced, 433
                          outsourced to a              cases com pleted in-h ouse
                          contractor, 300 cases
                          wou ld be completed
                          in-house
Exhibits Submitted        Not specifi ed               462 exh ibits processed by
                                                       contractor, 1,417 exhibits
                                                       processed in-house
Tests Com plet ed         Not specified                1,332 tests performed by
                                                       contractor, 6,275 t ests
                                                       perform ed in-house
DNA Profiles              Not specified (but hoped     138
Uploaded into COOl S      to generate thousands )
COOl S Hit s Obtained     Not specified (but hoped     2 COOlS forensic hits, 1
                          to obtain a hit on 10        national offender hit, 10 state
                          percent of the profiles      level offender hits
                          uploaded)

      The actual number of cases examined as a result of the program
was much lower than the TBI anticipated because it used an unre liable
methodology to estimate t he number of backlogged DNA cases eligible
for funding, and encountered a gene ral unwillingness from agencies
among the loca l law enforcemen t community to submit their cases for
analys is by the TBI. These prob lems are described in the followi ng
two sections of this report .




        3 Based on our work described later in the report (see Financia l Status and
Prog ress Reports section), we found inaccuracies in the program outputs reported to
the OJP after the cooperative agreement had expired. The chart above lists the final
status of outputs the TBI shou ld ha ve reported to the OJP based on the TBI 's UMS.



                                          5

Unreliable Methodology

      To determine the 2,500 no suspect case backlog in 2003 for the
State of Tennessee, the TBI contacted law enforcement and SARC
representatives from the metropolitan areas in Knoxville, Chattanooga,
Jackson, Memphis, and Nashville to obtain a count of each area's
cases. The initial query was performed in the fall of 2001 (yielding a
count of 1,223 cases) followed by a second query in the summer of
2002 (yielding a count of 41 cases). The TBI then doubled the sum of
these two queries because TBI officials believed the doubled sum
represented the number of cases that could be received during the
2-year program period.

      The TBI's initial focus on the five metropolitan areas appears
reasonable because to query the entire state would probably be cost
prohibitive. However, doubling the sum of the initial and follow-up
queries was not reasonable because that method had no logical
connection to the anticipated workload over the life of the agreement.

      TBI officials disagreed with our assessment of their
methodology. One TBI official said that their 2,500 case backlog
projection was their best guess estimate based on available
information.

Unwillingness from Some Law Enforcement Agencies

      The TBI made timely and frequent requests to other agencies to
submit no suspect cases for processing but faced a general
unwillingness from some law enforcement agencies to submit their
cases. See Appendix III for a chronology of these requests and other
cooperative agreement activities. One week after the initiation of the
cooperative agreement, the TBI requested local law enforcement
agencies SARCs to inventory and submit cases to the TBI for
processing. Two additional requests were made, one of which
extended the submission deadline date. Additionally, the TBI made
presentations about its program to law enforcement representatives
during two separate law enforcement conferences, and during these
conferences made solicitations for no suspect cases. TBI officials told
us that the response to these requests from the law enforcement
community was slow and in some cases nonexistent.

      There were several reasons for this slow and nonexistent
response. TBI officials told us that some law enforcement agencies
could not afford to assign staff the task of locating, handling, and



                                 6

shipping cases to the TBI. The local media reported the Director of the
TBI saying some agencies would not submit their evidence because
the cases were not prosecutable or were not well preserved. TBI
officials told us that the possibility of one local law enforcement agency
con structing its own forensic laboratory led that agency to withhold its
no suspect cases. This curtailed the number of backlogged cases
available to the TBI for processing.

The Overall Effect of Our Findings

       The TBI was unable to anticipate the unwillingness of other law
enforcement agencies to participate in the program. Th is , coupled
with its unrel iable methodology for estimating the amount of the
no suspect case backlog, resulted in the obligation of federal funds to
the program that could have benefited other state and local area DNA
backlog reduction programs .

       At the end of the cooperative agreement award period, the TBI
had expended about 16 percent (or $537,605) of its $3,369,813
award. The unspent balance of $2,832,208 remained obligated at the
conclusion of our audit work in March 2006, more than 10 months
after the cooperative agreement had ex pired. At least $1,275,000 in
funds awarded to the TBI could have been deobligated as early as
February 2004 because, at that time, the TBI awarded a contract for
only half of the amount anticipated . In a contract with the TBU
private vendor agreed to analyze~o suspect cases for $_
per case, for a total contract of $ _ . OJP had approved a
contract for $ _ , but the TBI later reduced this amount because
the winning bid was lower than ex pected. The TBI did not
communicate this reduction to the OJP, resulting in a lost opportunity
to deobligate over one-third of awarded funds for use in other DNA
backlog reduction program s without adversely affecting the TBI's
program .

       The national CODIS system is an important resource to law
enforcement because the system can potentially link collected crime
scene evidence to a convicted felon. TBI award documents state that
for CaDIS to be truly effective and DNA to reach its full potential, DNA
must be populated w ith both offender profiles and DNA profiles from
crime scene evidence. The loss of cases that could have been funded
by unspent TBI funds diminishes the ability of CaDIS or other DNA
databases to assist law enforcement in solving and preventing criminal
activity .




                                 7

Cooperative Agreement Expansion

      In October 2005, the National Institute of Justice, OJP offered
the TBI an opportunity to enter into an expanded cooperative
agreement that, unlike the expired agreement we audited, would lift
the restrictio n limiting federal funding to cases with no known suspect.
As of March 2006, the TBI had submitted their application for this
ex pansion to the OJP and were waiting for a respon se. During our
audit work, a TBI official told us that when the TBI queries the law
enforcement and SARC community for their DNA cases eligible for
analysis under the expanded cooperative agreement, it will stipulate
that only real numbers of backlogged DNA cases would be accepted,
not estimates . Another official told us that the TBI may consider using
a private firm that specializes in conducting polls and inquiries to
determine the backlog . We believe these measures will help to ensure
an accurate projection of backlogged cases for future DNA backlog
reduction programs and that unneeded funds are not obligated.

Financial Status and Progress Reports

       Finan cial Status Reports. The financial aspects of the OJP
cooperative agreement is monitored through Financial Status Reports
(FSR). According to the OJP Financial Guide, the FSR should be
submitted within 45 days of the end of the quarterly reporting period.
Even when there have been no outlays, a report containing zeros must
be submitted . Funds or future awards may be withheld if reports are
not submitted or are excessively late . We tested the FSRs submitted
by the TBI from the period ended June 30, 2004, to the expiration of
the cooperative agreement on April 30, 2005. We found that all FSRs
were submitted timely and accurately reflected cooperative agreement
activity .

       Progress Reports. Progress Reports are submitted in order to
present information relevant to the performance of the cooperative
agreement . According to the OJP Financial Guide and the cooperative
agreement award document, Progress Reports shall be submitted
within 30 days after the end of the report periods, which are
June 30 and December 31, for the life of the award. The TBI was
required to submit four Progress Reports throughout the cooperative
agreement award period. We found that all four Progress Reports
were submitted timely; however, one Progress Report did not
accurately reflect cooperative agreement activity . As shown on the
ne xt page, the TBI's Progress Report dated July 29, 2005, contained




                                 8

inaccurate numbers for the cases and exhibits processe d, and
in accu rate numbers for both sta t e leve l and nati ona l offender hits,
compared to th e data recorded in the TBI 's Laboratory Information
Management System (LIMS).4 A TBI official told us that these
inaccuracies occurred because the number of exhi bits processed
through outsourcing was over-reported . Also, the TBI officia l told us
th at the se inaccuracies co uld be related to: (1) the transfe r of
no suspect case data into LIMS , (2) the way a forensic chemist enters
the results of their examination into LIMS, (3) an automatic updating
feature w ithin LIMS, or (4) the presence of duplicate entries. 5

            CASES, EXHIBITS, AND OFFENDER HITS 

          REPORTED TO OlP COMPARED TO THE TBI'S 

       LABORATORY INFORMATION MANAGEMENT SYSTEM 6 

                              July 29, 2005
                                                  LIMS    Difference
                             Progress Report
             Cases                         602   618              (16)
              In-house                      423   433               (10)
              Outsourced                    179   185                 (6)
             Exhibits                  5,459 1,879              3 , 580
              In - house                1,398   1,417               ( 19)
              Outsourced                4 , 061   462            3,599
             Hits                            10    13               (3)
              State leve l                    6    10               (4)
              National                        4     3                  1
            Source: Tennessee Bureau of Investigation

Cooperative Agreement Drawdowns

      Th e OJP Financial Guide estab lishes methods under which the
awarding agency makes payments to grantees. The methods and
procedures for payment establi shed by the federal government are
designed to minimize the time elapsed between the transfer of funds
by the government and th e disbursement of funds by the grantee.
Grantees may be paid in adva nce, provided they maintain procedures

        4 An offender hit occurs when one or more DNA profiles from a crime scene are
linked to a convicted felon.

       5 In August 2004, the TBI began the integ ration of its forme r DNA no suspect
database into the new UMS. TBI offiCials told us that the old database was not
transferred into LIMS all at once, but in batches over a period of months .

        6 We noted minor discrepancies from our comparison of the TBI's LIMS
reports to a separate count of cases, exhibits, tests, and offender hits performed by
TBI officials for the Nashville and Memph is Reg ional Crime Laboratories. There were
no d iscrepancies for the other regional crime labora tories.




                                       9

to minimize the time elapsing between the transfer of funds by the
government and the disbursement of funds by the grantee. Any funds
that remain unobligated by the grantee at the end of the cooperative
agreement award period will lapse and revert to the awarding agency.
Grantees are not permitted to incur additional obligations after the end
of the cooperative agreement award period.

      We interviewed a TB1 official about the TBI's drawdown
procedures and reviewed the TBI's accounting records. The TB1
requested award funds as a reimbursement of expenditures made
from the cooperative agreement. We concluded that each
reimbursement received by the TB1 was accurate according to its
accounting records.

Budget Management and Control

      Grantees are permitted to make changes to their approved
budgets to meet unanticipated program requirements. However,
according to the OJP Financial Guide, certain types of changes to
approved budgets require advance approval from the OJP. The
grantee must obtain approva l for:

      • 	 any budget revision that cou ld result in the need for
          additional funding, and

      • 	 cumulative transfers among direct cost categories that exceed
          or are expected to exceed 10 percent of the total approved
          budget.

      Failure to adequately control cooperative agreement budgets
could lead to the wasteful and inefficient expenditure of government
funds. We compared the OJP-approved budget to actual TB1
expenditures to determine if any deviations existed. We reviewed the
Financial Clearance Memoranda approved by the OJP and compared
approved cost categories to actual expenditures reported by the TB1 at
the time of our audit. We found no evidence of budget revisions that
could increase cooperative agreement funding, and we noted no
transfers of budget cost categories that exceeded 10 percent.

Program Income

     The OJP Financial Guide addresses the disposition of program
income earned during the cooperative agreement period. Program
income is defined as income generated as a direct result of an



                                 10 

agency-funded project. Under certain circumstances, program income
generated may be added to the funds committed to the cooperative
agreement and used for purposes that further the objectives under
which the cooperative agreement award was made . We looked for
evidence of program income to determine if the income was properly
accounted for and applied to the cooperative agreement . We asked
TBI officials if they received income generated by cooperative
agreement activity, and tested expenditures and disbursements. TBI
officials stated the cooperative agreement generated no program
income and we found no evidence of program income during our
review and testing. We concluded the cooperative agreement did not
generate any program income.

Cooperative Agreement Expenditures

      The OJP Financial Guide outlines the principles for determining
allowable costs for cooperative agreement activity . The Financial
Guide provides guidance for cooperative agreement expenditures and
established the factors affecting the allowability, reasonableness, and
allocability of costs . We judgmentally selected 15 high-dollar
disbursements, and randomly selected another 13 disbursements.
In total , 28 sampled disbursements represented $494,154 in
cooperative agreement expenditures made for overtime and fringe
benefit costs ($5,259), and direct charges ($488,895) . To determine
the allowability, reasonableness, and allocability of these expenditures,
we reviewed the TBI's accounting records, timesheets and payroll
registers, and other supporting documentation. We found that
overtime and fringe benefit costs for the employees we tested were
accurately charged, supported, and consistent with the personnel
charges of other employees tested; and that direct charges were
properly authorized, classified, recorded, and charged to the
cooperative agreement.

       We also judgmentally selected five high-dollar disbursements for
accountable property and randomly selected another five
disbursements for accountable property. From these 10
disbursements, we selected 20 items of accountable property
representing $292,570 in accountable property purchased with
cooperative agreement funds. We physically verified or confirmed by
letter that the accountable property selected was used for purposes
stated in the cooperative agreement.




                                 11 

Monitoring of Subrecipients

       The OJP Financial Guide states that grantees are responsible for
managing the day-to-day operations of subrecipient cooperative
agreement-supported activities. Grantees must monitor subrecipient­
supported activities to assure compliance with applicable federal
requirements. Grantees must also ensure that subrecipients are
meeting performance goals and contributing to the achievement of the
cooperative agreement objectives. Failure to adequately monitor
subrecipients could lead to the mismanagement of federal funds or the
failure of the grantee to achieve cooperative agreement objectives.
There were no subrecipients for this cooperative agreement .

Conclusion

      We found that the TBI complied with the reporting and
accounting requirements of the cooperative agreement. Financial
Status and Progress Reports were submitted timely and the Financial
Status Reports accurately reflected cooperative agreement activity.
Reimbursements from award funds were accurate and cooperative
agreement expenditures were allowable, reasonable, allocable, and did
not deviate beyond 10 percent of the OJP-approved budget.

       However, the TBI submitted one Progress Report that did not
accurately reflect cooperative agreement activity, and did not ach ie ve
its objective to outsource or examine 2,800 no suspect DNA cases.
The TBI 's unrel iable methodology and the unwillingness of some local
law enforcement agencies to submit their cases had the effect of
obligating federal funds that could have benefited other DNA backlog
reduction programs. This diminishes the effectiveness of CODIS and
other state DNA databases as a crime solving tool for law enforcement.

      TBI officials discussed with us corrective measures they were
considering to ensure the accuracy of future TBI backlog estimates .
We believe these measures will help to ensure an accurate projection
of backlogged cases, and that unneeded funds are not obligated from
future backlog reduction programs.




                                12 

Recommendations

We recommend that OJP:

  1. 	 Ensure that the TBI develops and implements a reliable
      methodology when projecting the amount of backlogged DNA
      cases eligible for funding from future federal award programs.

  2. 	Ensure that the TBI submits Progress Reports that accurately
      reflect cooperative agreement activity.

  3. 	 Deobligate $2,832,208 in une x pended award funds that remain
       obligated to the program because the cooperative agreement
       has expired.




                               13 

                                                          APPENDIX I 


            OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of the audit wa s to determin e if reimbursem ents
claimed for costs under the agreement were allowable, supported , and
in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the agreem ent . We conducted our audit in
accordance with Government Auditing Standards and included such
te sts as were considered necessary to accomplish our objectives . Our
audit concentrated on but was not limited to the inception of the
cooperative agreement through March 2006.

       We tested compliance with what we consider to be the most
important conditions of the agreem ent . Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial
Guide . We tested the TBI's activities in the following areas:
(1) cooperative agreement obj ectives and accomplishments,
(2) financial status and progress reports, (3) cooperative agreement
drawdowns, (4) budget management and control, (5) cooperative
agreement expenditures, (6) matching funds, (7) program income,
and, (8) monitoring of subrecipients .

      We did not test internal controls for the TBI as a whole or
specifically for the cooperative agreement administered by the TBI.
The State of Tennessee was required to have a single audit conducted.
We reviewed the single audit for the fiscal year ended June 2004 to
determine if contro l weaknesses or significant noncompliance issues
were found that related to the TBI's federal programs. We found no
instances of contro l weaknesses or noncompliance issues related to
the TBI cooperative agreement or cross-cutting to all federal awards
for the State of Tennessee .

      In conducting our audit, we tested pay records for two non­
consecutive pay periods . We judgmentally selected 15 disbursements
and randomly selected another 13 disbursements from a universe of
154 disbursements. We physically verified, or confirmed by letter, 20
items of accountab le property se lected from 5 h igh-do llar
disbursements, and 5 randomly selected disbursements .




                                14 

                                                                          APPENDIX II

                   SCHEDULE OF DOLLAR-RELATED FINDINGS

FUNDS PUT TO BETTER USE:                                                                  Page
Deo blig ate unspe nt coo perati ve agree m ent
fund s                                                            $ 2,832,20 8             7
TOTAL FUNDS PUT TO BETTER USE                                     $2,832,208

TOTAL DOLLAR-RELATED FINDINGS                                     $2,832,208

     Funds Put to Better Use are future fund s th at cou ld be used more efficiently if
     managemen t took action s to imp lement and complete audit recomm endations .




                                           15 

                                                        CHRONOLOGY OF SELECTED TBI PROGRAM ACTIVITIES 

                    Event                   2003                                  2004                                                                                2005
                                                            ,.,   Od I _ l o..c                              l !.Ia   "", I ",                           -   I .,.,   'M            I             I                         "" I Se I Od
                                             ..
                                                                                                                                                                             Fet>             N            ...."                               N~

        Cooper.lllve agreement              '"     '"
                                                                                  ,~     ,~

                                                                                                  ""   AI.
                                                                                                                                     '" "       ""                                      Mat           Ma
                                                                                                                                                                                                                       '"
        """"'
        First requesllQ Ioc.allaw
        enforcement for backlogged           ..
        no SUSpe<;1 cases
        ~~~$t 10 change project
                 rante<!                                    .. ·
        Second request to local law
        :1~=n~~~~acklogged
                                                        ~


                                                               ..
        FirSt request 10 district
        anomers general for
        backl   ed-no suspect cases
                                                               .. ,'                                         L
        Mao. tonIetence
        pre5efltahon about the
        program and a solICItation for                         ..                             .
        eases
        Second   requast to !lIStriC
        attorneys general for
                                                                  · · ..                                                 .~                                  .~




        bac.kL099cd­ no susPect cases
        Third requeSllo local law
        enforcement for bacJ(Jogged
                                                                  - ..
        no susoect cases
        Requesllo sexual assault

        ~r:e::~u~~                  cases
                                                                  - · ..                                                 ,                                   .
.....
0'1
        Informed OJP 01 a problem in
        nteeMllg no suspecl cases
        from some local law
        enforcemen t 30enoes
                                                                      ..
        52 5 million con tract WIth
        pnvate vendor la:er reduced
        10 512 mllbon, Is slgl'led by
        Ina TOl'"l/lessee Comptloller of
                                                                                         ..
                                                                                                                                 •
        th e Treasul"t
        Made conference
        presentation about the
        program and a SOliCitation for
                                                                     •    ·                            ..
                                                                                                                          •            •
        cases
        During It meOaa interview, IB1
        OIreaor oiSGUSses diffICUlty In                                                                                                    ..
        rec.eMflQ no suspect cases
        FM"SI agreement exten5ol0l'l
        eulhortZed bv OJP                                                                                                                  ..
                                                        ! I                                                                                                                             ..                                                          ~

                                                                     [1                  I I I ! I I J I J                                                   I                                    I                                        I
        Second agreement extenSion
                                                                                                                                                                                                                   I
                                                   I                                                                                                                                          .. I                                                  "
        aulhonzed !'y OJP                                                                                                                            J
        ~~srative agreement
                                                        I                                I     I   j j I I                                                                                                         I                       I        "

                                                                                                                                                                                                                                                    m
        TBI submits l inal progress
        repon regardlll9 the status of                                                                                                                                                                                 ..                           Z
        the oroornm 10 OJP
                                                                                                                                       •                                                                                                            ... 

                                                                                                                                                                                                                                                    C

                                                                                                                                                                                                                                      .
        OJP offers an expandOO
                                                                                                                                                                                                                                                    X
        agreement that lilts If'ie
        reSll'lCllon hmUlf1g aoar~51S

                                                                     r                                                                                                                                                                              ...

                                                                                                                                                                                                                                                    ...

        0tlIy to cases WIth no known
        wi"""                                                                                                                                                                                                                                       ... 

                                                                                          APPENDIX IV

    TENNESSEE BUREAU OF INVESTIGATION RESPONSE

                         TENNESSEE BUREAU OF INVESTI GATION 

                                  90 I RS. Cass Boulevard 

                                   Naslwtllc. Tennessee 372 16-2639 

                                             16151744-4000
                                           F3cslmile (6 15) 744· 4500
PlnL DRED ESEN 	                                      (6 15) 744 ·'1001               MARK GWYN
       .,.O.
    Gov..
                                              11)1)
                                                                                         Dutlet."TOI!



                                                                    March 29, 2006


    Ferri s B. Pol k
    Regional Audit Managcr
    U.S. Dcpartmem of l uslice 

    Officc of the Inspector General 

    Atlanta Regional Audit Office 

    75 Spri ng Street, Su ite 1130 

    Atlanla, Georgia 30303 


                       Subject: Response to the Draft Audi t Report of the No Suspect Ca<cwork
                       DNA Back log Reducti on Program Fiscal Year 2003 coopcralivc
                       agreement number 2003-DN-B X- K047

    Dear Mr. Pol k,

    The T ennessee Bureau of investigation appreciates the time and efforts that you and your
    staff put into assessing OUT uti lization of the FY 2003 No Suspect Casework D A
    Backlog Reduction Program Funds. The Bureau welcomes your responses and
    recommendations.

    We have completed our review of the Office of Inspector General Draft Report dated
    March 14 th , 2006. Please find below, our responses to your preliminary r(.."Commendat ion.
    We have included the statements fro m the D IG repon followed by our comments.




    We recommend th at Ol P:

        t. 	    Ensure that the TB I devel ops and implements a rel iable methodology when
                projecting the amo unt of backlogged DNA cases eligible for fundin g rrom
                fut ure federal award program s.

                Mana gement comment. TB I Forensic Management feels that a reli able
                methodology was used. Law enforcement and SARC represent atives from the
                metropolitan areas in Knoxville, Chattanooga, Jackson, Memphis and
                Nashville were contacted on two separate occasions to query the number of
                backlogged DNA cases eligible for submission. The sum of the queri es was
                doubled whi ch appeared to be a conservative estimate orthe ca:;cs applicable




                                   [:{fERNA110~Al..l.Y   ACCREom::o SlNCt; 1994




                                                          17
         for submission. According to the US Census Bureau ofTenncsscc report for
         2003, these five areas made up approximately 27% of the population in
         Tennessee. Since these areas constitute approximately one-fourth of the
         population, doubling the estimates for submissions appeared to be
         conservati ve and reasonable to the TBI in projecting the amount of
         backlogged DNA cases.



2. 	     Ensure that the TBI submits Progress Reports that accurately reflect
         cooperative agreement activity.

         Management comment. The inaccurate progress report was due to a
         typographical error on the report. The July 29, 2005, report should have
         reported 461 instead of 4061 for out-sourced exhibil~. We will diligently
         review the progress reports prior to submission to help ensure accuracy.



3. 	     Deobligate $2,832,208 in unexpected award funds that remain obligated to the
         program because the cooperative agreement has expired.


         Management comment. This issue has been addressed by OJP. The TBI
         received a Grant Adjustment Notice dated March 13,2006, that extended the
         grant period to 9/30/2006. The amount requested in the revised budget was
         fully funded.

Please feel free io contact either myself, at (615) 744-4402 or Dr. Sharon Horton­
Jenkins, should you have any questions. Dr. Horton-Jenkins may be reached at
(615) 744-4414.

                                                  Sincerely,

                                                 ~~a.w;,iolW
                                                  Lanny A. Wilder
                                                  Assistant Director

LW/shj


xc: Natalie Liu, Program Manager
Office of Justice Programs




                                          18 

                                                                                                APPENDIX V

             OFFICE OF JUSTICE PROGRAMS RESPONSE


                                                            u.s. Department of Justice
                                                            Office o f Justice Progra ms

                                                            Office of the Comptroller




  APR 	132006
M EM ORAND UM TO: 	              Ferri s B. Po lk
                                 Reg io nal Audi t Manage r
                                 Atlanta RegIOnal Audll OOke
                                 Offi ce of th e Inspecto r Ge ne ral
                                                                          ~~#
FROM : 	                         Marcia K Pau ll ~ "--"'f"'..~.....cY-"
                                                             .
                                 Acting Complrollcr '\"'"

SU BJ ECT: 	                     Respo nse 10 the Dmrt Audit Hcport of lhe Office of J ustice
                                 Progrn ms. No SuspeCt Case wo rk DNA Bac klog Red uctio n
                                 Program , Fisca l Year 200) Cooperati ve Agree men t Awa rded         10   tht.:
                                 Te nnessee Bureau or Invcsli g;:lti on. Agreem ent Number
                                 2003-DN -BX-K047

Thi s m emor"mdum is in rd ~ rcncc to your corn:spond cncc dated Miln.:h 14.2006. transm itti ng the.'
above-referenced dra ft audit repo rt lor the Tennessee l3urc ilu or Investi gatio n (THI ). We
co nsider th e s ubject report reso lved and req ues t wr iu clI acceptanc e of th is acti o n fro m your
o lli ce.

The re po rt contains th ree reco mm endations and S2,832,208 in total fund s to be ll er lise. T he
foll Owing is our ana lysis of the audi t recom mendati o ns.

l. 	    Ens u re tha t the Til l d evelops .md imp leme n ts a .-cliablc methodo logy w h en
        projectin g the amount of buckloggcd DNA cases eligib le for fundi ng frum futu.-e
        Fl'ticntl awnnl prognlnls.

        We a g.ree wi th the recommendatio n. We wi ll coord inate with the TI3I \0 obwi n a writtl:ll
        respo nse spec ifyi ng that a re lia ble me thodology has bee n de ve loped .md imp lemented fo r
        proj..:e ti ng the amount of' bac kl oggcd DNA cases eli gi ble fo r fu ndin g from flilu rc Federa l
        award program s.

2. 	    E nsun" th "t TO t s ubm its progress repor ts Iha l nC'curatcly renee l coopcrat ivC'
        agreement ~tctivil y.

        We agree w ith the rccommcndati oll. We wi ll cooruina te wit h the '1'131 to o bta in a written
        response spec ifyi ng con tro ls im picl11(.;ntcd \0 e nsu re" Ihat progress reports accurate ly
        rc ll el:l coope rati ve agreement acti vit y W h~ ll submi ttcd .




                                                   19
3. 	    Deobligate $2,832,208 in unexpended award funds thai remain obligated to the
        program because tbe cooperative agreement bas expired.

        We disagree with the recommendation. The National institute of Justice (NIJ) program
        office recommends that the TBl use its remaining funds to reduce their backlogged DNA
        cases, due to their limited ability to effectively use its funding on many high protile cases
        such as murders and rapes. We will coordinate with the TBI and the NIJ to provide the
        appropriate supporting documentation.

We appreciate the opportunity to review and comment on the draft report. We will continue to
work with the grantee to address the recommendations. If you have any questions or require
additional information, please contact Andrea McIntosh of my staff at (202) 616·2905.

ce: 	   Richard P. Theis
        Acting Director
        DOJ Audit Liaison Office

        Glenn R. Schmitt 

        Acting Director 

        National institute of Justice 


        Kiri Rowe 

        Chief of Staff 

        National institute of Justice 


        Natalie Lu 

        Program Manager 

        National institute of Justice 


        OJP Executive Secretariat 

        Control Number 20060379 


        Official Grant File 

        Grant Number2003·DN-BX-K047 





                                                20 

                                                             APPENDIX VI

 OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION ANALYSIS 

    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT 


      We provided the draft report to both the TBI and OJP for comment.
The TBI 's comments are contained in Appendix IV, and OJP's comments are
contained in Appendix V. As summarized below, the TBI concurred with one
of the three recommendations, whil e OJP concurred with two of the thre e
recommendations :

Recommendation Number:

1. 	 Resolved. In its response to the draft audit report, the TBI stated that
     a reliable methodology was used to project the number of backlogged
     DNA cases eligible for funding, and that the backlog projection was
     conservative and reasonable . However, OJP agreed with the
     recommendation and stated a plan to coo rdinate with the TBI to obtain
     a written response specifying that a reliable methodology has been
     developed and implemented for projecting the number of backlogged
     DNA cases eligible for funding from future federal award programs. This
     recommendation is resolved based on OJP's agreement to take
     appropriate corrective action . The recommendation can be closed when
     we review documentation supporting the methodology adopted .

2. 	 Resolved. In its response to the draft audit report, the TBI agreed with
     the recommendation and stated its intention to diligently review the
     progress reports prior to submission to help ensure accuracy. OJP
     agreed with the recommendation and stated a plan to coordinate with
     the TBI to obtain a written response specifying controls implemented to
     ensure that progress reports accurately reflect cooperative agreement
     activity when submitted . This recommendation is resolved based on the
     agreement by the TBI and OJP to take acceptable corrective action .
     This recommendation can be closed when we review documentation
     specifying controls implemented by the TBI to ensure that submitted
     progress reports accurately reflect cooperative agreement activity.

3. 	 Resolved. In its response to the draft audit report, the TBI disagreed
     with the recommendation and noted that the issue has been addressed
     through a notice issued by OJP on March 13, 2006 , extending th e
     cooperative agreement period to September 30, 2006 . OJP also
     disagreed with the recommendation and noted that the National
     Institute of Justice recommends the TBI use its remaining funds to
     reduce its backlogged high-profile DNA cases, such as murder and rape .


                                     21 

OJP stated a plan to coordinate with the TBI and NIJ to provide
appropriate supporting documentation. Neither the TBI nor OJP
provided documentation to support an extension of the cooperative
agreement.

We note that the $3.4 million cooperative agreement was awarded in
July 2003 and ex pired in April 200S. When we issued our draft report,
nearly a year after ex piration of the cooperative agreement, about $2.8
million of cooperative agreement funds remained unex pended. Our
recommendation was intended to ensure that these funds are used for
the vital purpose of examining backlogged no suspect cases as provided
for in the cooperative agreement award. Although both the TBI and OJP
stated disagreement with the recommendation, both also proposed
corrective action that appears to accomplish the intent of the
recommendation.

We remain concerned that $2.8 million of the awarded funds were idle
for nearly 3 years while the TBI experienced a backlog of cases such as
murder and rape. We are also concerned about the time lag between
expiration of the cooperative agreement and the subsequent extension
of the award . Despite these concerns, the recommendation is resolved
based on the alternative corrective action proposed by the TBI and OJP
to use the funds for backlog reduction purposes. The recommendation
can be closed when we review documentation supporting the extension
of the cooperative agreement. We suggest that OJP closely monitor TBI
expenditures under the extended award to ensure that any funds
remaining on September 30, 2006, are deobligated and used for other
backlog reduction activities.




                                22 

